F
COMPLIANCE

Thereby certify that the accompanying Brief of The International Society
for Krishna Consciousness, Inc., the Coalition for Jewish Values, Asma T. Uddin,
Pastor Robert Soto, and Imam Ossama Bahloul as Amici Curiae Supporting
Petitioner in The Little Sisters of the Poor Saints Peter and Paul Home v. The
Commonwealth of Pennsylvania et al. and Donald J. Trump v. The
Commonwealth of Pennsylvania et al., Nos. 19-431 & 19-454 complies with the
word count limitations of Supreme Court Rule 33(g) in that it contains 6,525
words, based on the word-count function of Microsoft Word — Office 365,

including footnotes and excluding material not required to be counted by Rule

<P

Gene C. Schaerr
March 9, 2020

33(d).
